{'

t

.L

APPENDIX
i

*

*

\

*
*

X

Case: 21-1222

Document: 6-1

Page: 1

Date Filed: 07/14/2021

June 10, 2021
CLD-193
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 21-1222
HAROLD V. HOSKINS, Appellant
VS.

SUPERINTENDENT HUNTINGDON SCI, ET AL.
(M.D. Pa. Civ. No. 3-18-cv-01701)
Present:

RESTREPO, MATEY and SCIRICA., Circuit Judges
Submitted appellant’s request for a certificate of appealability under 28
U.S.C. § 2253(c)(1) in the above-captioned case.
Respectfully,
Clerk

________________________________ ORDER_________________________________
The request for a certificate of appealability is denied. See 28 U.S.C. § 2253.
Appellant cannot show that jurists of reason would fmd it debatable whether his petition
states a valid claim of the denial of a constitutional right and debatable whether the
District Court was correct in its procedural ruling. See Slack v. McDaniel, 529 U.S. 473,
484 (2000). Jurists of reason would not debate that Appellant’s claim of ineffective
assistance of trial counsel for failure to challenge the firearms evidence is procedurally
defaulted and cannot be excused under the rule announced in Martinez v. Ryan, 566 U.S.
1, 14 (2012). See Norris v. Brooks, 794 F.3d 401, 404 (3d Cir. 2015). Also, jurists of
reason would not debate that Appellant’s claim of ineffective assistance of counsel for
failure to challenge his sentence is not cognizable to the extent the Appellant challenges
the effectiveness of.P.CRA counsel; see 28 U.S.C: § 2254(i), and otherwise lacks merit,
for substantially the reasons provided by the District Court, see Parrish v. Fulcomer, 150
F.3d 326, 328 (3d Cir. 1998) (holding that counsel cannot be ineffective for failing to
raise meritless claim).
By the Court,
s/Anthonv J. Scirica
Circuit Judge
Dated: July 14, 2021
PDB/cc: Harold V. Hoskins
Ronald Eisenberg, Esq.

A True Copy^0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
HAROLD V. HOSKINS
CIVIL ACTION NO. 3:18-1701

Petitioner

(JUDGE MANNION)

v.
SUPERINTENDNET KAUFFMAN,
Respondent
ORDER

In accordance with this Court’s memorandum issued this same day, IT

IS HEREBY ORDERED THAT:
1. The petition for writ of habeas corpus (Doc. Y) >s DENIED.
2. There is no basis for the issuance of a certificate of appealability.
See 28 U.S.C. §2253(c).
3. The Clerk of Court is directed to CLOSE this case.

61 Malachfy £. Munnian
MALACHY E. MANNION
United States District Judge
DATED: January 19, 2021
18-1701-01-ORDER

B

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
HAROLD V. HOSKINS,
CIVIL ACTION NO. 3:18-1701

Petitioner

(JUDGE MANNION)

v.
SUPERINTENDENT KAUFFMAN
Respondent

MEMORANDUM
Petitioner,

Harold

Hoskins,

an inmate confined

in the State

Correctional Institution, Huntingdon, Pennsylvania, filed the instant petition
for writ of habeas corpus pursuant to 28 U.S.C. §2254. (Doc. 1). He
challenges his conviction and sentence imposed in the Court of Common
Pleas of Lycoming County. Id. The petition is ripe for disposition. For the
reasons outlined below, the petition will be denied.

Factual and Procedural Background
The facts underlying Hoskin’s conviction are contained in the
Pennsylvania Superior Court’s November 21, 2017 Memorandum Opinion,
affirming the dismissal of Hoskins’ petition filed pursuant to the Post

B

Conviction Relief Act (PCRA), 42 Pa.C.S. §§9541-9546. (Doc. 13-2 at 90).
These facts are as follows:
On Appellant’s direct appeal, this Court summarized the
underlying facts of the case as follows:
On July 8, 2005, Appellant was drinking and playing poker at the
home of James Drummond and his paramour, Linda Bower,
along with Donnie Evans. Appellant left the game after he
became annoyed when he lost all of his money and no one would
give him any more. He returned to the residence, waving a gun
and stating it was not an f—ing joke. Appellant pointed the gun
at Evans’ head and pulled the trigger twice; no shots were fired,
but the sound of the gun mechanism clicks [were] heard. Bower
later testified that Appellant took a bullet from the .38 revolver
and laid it on the table, then immediately put the bullet back into
the gun, and pulled the trigger while'Evans and Drummond were
trying to take it from him. Drummond later testified that Appellant
pulled the trigger a third time while the gun was pointed at his,
Drummond’s stomach. Appellant pulled the trigger a fourth time
in an unknown direction, Evans and Drummond wrested the gun
away, and police arrived.
Appellant was charged with various offenses, including two
counts of attempted homicide, each against Evans and
Drummond. A jury trial was conducted on February 2 and 5,
2007, at which Appellant testified in his defense. He was found
guilty of all charges.1 On April 7, 2011, the court imposed an
aggregate sentence of twenty-seven to sixty years'
imprisonment.
Commonwealth v. Hoskins,
(unpublished memorandum at
and some footnotes omitted).
judgment of sentence on April

48 A.3d 485 (Pa. Super. 2012)
1-3) (citations, quotation marks,
This Court affirmed Appellant’s
25, 2012, id., and our Supreme

1 Following trial, Appellant absconded and a bench warrant was issued. He
was apprehended four years later on March 23, 2011. Because the trial judge
had retired during the interim, sentencing was assigned to another judge.
-2-

Court denied Appellant’s petition for allowance of appeal on
September 19, 2012, Commonwealth v. Hoskins, 53 A.3d 756
(Pa. 2012).
Appellant pro se timely filed a PCRA petition on November 21,
2012. Therein, Appellant “alleged after discovered evidence;
specifically that Donnie Evans and James Drummond had now
changed their testimony that [Appellant] pointed a gun at them
and pulled the trigger.” PCRA Court Opinion, 3/21/2014, at 2.
The PCRA court appointed Jerry Lynch, Esquire, as Appellant’s
counsel; counsel filed an amended petition on July 9, 2013; and
the PCRA court scheduled a hearing. Before the hearing, on
November 19, 2013, Attorney Lynch filed a petition to withdraw
and no-merit .letter pursuant to Commonwealth v. Turner, 544
A.2d 927 (Pa. 1988), and Commonwealth v. Finley, 550 A.2d
213 (Pa. Super 1988) (en banc). Therein, Attorney Lynch
represented as follows.
[Appellant’s]
PCRA
[petition]
asserted
that
[Appellant] is entitled to relief in light of afterdiscovered evidence. The evidence [Appellant] relies
upon is two [] notarized affidavits. [Appellant] has
presented that the affiants, James Drummond and
Donnie Evans, have recanted their prior testimony.
Donnie-Evans, in his affidavit, states that he would
be willing to testify that “at no time did I see
[Appellant] point the gun in anyone’s direction.” This
is actually not a recantation, Mr. Evans did testify to
that at trial.
QUESTION: Okay. I believe your testimony
was, you don’t recall him pointing that gun at
anyone in that room?
ANSWER: That’s correct.
N.T., [2/2/2007, at 99]. As such, counsel does not believe
that Mr. Evan[s’s] testimony would be any more helpful to
[Appellant’s] case now than it was at trial.
-3-

Counsel contacted James Drummond after several
attempts. Mr. Drummond has explained that since the trial
he began to suffer from diabetes and it [a]ffects his
memory. When asked why he would have recanted his
prior testimony, he said, “He couldn’t remember, maybe
that’s why” and that “He didn’t remember anything about
the event or signing the affidavit.” In light of Mr.
Drummond’s failing memory concerning the matter and the
inherent unreliability of recantation testimony!,] counsel
does not believe that Mr. Drummond’s testimony would
have changed the outcome of the trial had it been
introduced.
Turner/Finley “No Merit” Letter, 11/19/2013, at 2-3 (pages
unnumbered).
Counsel’s Turner/Finley letter also noted that Appellant
wished to raise a new issue “concerning whether a .38
handgun was capable of firing a .32 caliber bullet.” Id. at 3.
The PCRA court ordered counsel to file an amended
petition raising the new issue or to file another
Turner/Finley letter. Shortly thereafter, Appellant pro se
sent a letter to the PCRA court noting four complaints about
the way that this trial counsel dealt with issues related to
the handgun. By order of December 30, 2013, the PCRA
court filed Appellant’s letter and directed a copy to be
forwarded to Attorney Lynch pursuant to Pa.R.Crim.P.
576(A)(4).
On January 13, 2014, counsel filed a new petition to
withdraw, opining therein that trial counsel was not
ineffective in failing to pursue the .questions of the
Commonwealth’s firearms witness that Appellant claims he
- should have asked. Petition to Withdraw, 1/13/2014, at TJ6.
By opinion and order of March 21, 2014, the PCRA court
thoroughly examined the new firearms issue and agreed
with Attorney Lynch that it lacked merit and no hearing was
necessary. Accordingly, the PCRA court granted counsel’s
petition to withdraw and issued notice pursuant to
-4-

Pa.R.Crim.P. 907 of its intent to dismiss Appellant’s
petition without a hearing. Appellant responded to the
notice, reiterating both his original claims regarding the
witnesses’ recantations of their trial testimony and his
claims regarding trial counsel’s questioning about the
handgun. Reply to Notice to Dismiss, 4/7/2014, at 1-2. The
PCRA court, noting the lack of new issues in Appellant’s
response, dismissed the petition by order filed on June 6,
2014.
Appellant timely filed a notice of appeal on June 26, 2014.
The PCRA court ordered Appellant to file a concise
statement of errors raised on appeal, and Appellant timely
complied on July 17, 2014, listing the same issues raised
in his response to the 907 notice.
No further activity appears on the docket until June 8, 2015,
when the clerk of courts filed an order of our Supreme
Court denying a petition for writ of mandamus that
Appellant filed in that court seeking to compel the PCRA
court to forward his notice of appeal to this Court. Another
lengthy gap is followed by an order of September 30, 2016,
directing.the clerk of courts to docket the notice of appeal
as having been filed on June 26, 2014. By order of
November 7, 2016, the PCRA court adopted its March 21,
2014 order as its opinion.
(Doc. 13-2 at 90-94, Pennsylvania Superior Court Memorandum Opinion).
On November 21,2017, the Pennsylvania Superior Court affirmed the PCRA
court’s order dismissing Hoskins’ PCRA petition. Id.
On August 28, 2018, Petitioner filed the instant petition for writ of
habeas corpus, in which he raises the following two issues for review:
1. Trial counsel was ineffective for failing to hire an expert to
challenge the Commonwealth’s witness concerning ballistic
findings.
-•5-

.

2. PCRA counsel was ineffective for failing to raise a claim of
ineffective assistance of counsel for failing to challenge the
discretionary aspects of sentencing.
(Doc. 1, petition).

II.

Legal Standards of Review
A habeas corpus petition pursuant to 28 U.S.C. §2254 is the proper

mechanism for a prisoner to challenge the “fact or duration” of his
confinement. Preiser v. Rodriquez, 411 U.S. 475, 498-99 (1973). Hoskins’
case is governed by the Antiterrorism and Effective Death Penalty Act of
1996, Pub.L.No. 104-132, 110 Stat. 1214, April 24, 1996 (“AEDPA”). 28
U.S.C. §2254, provides, in pertinent part:
(a) The Supreme Court, a Justice thereof, a circuit judge, or a
district court shall entertain an application for a writ of habeas
corpus in behalf of a person in custody pursuant to the
judgment of a State court only on the ground that he is in
custody in violation of the Constitution or laws or treaties of
the United States.
(b)(1) an application for a writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a State court
, shall not be granted unless it appears that (A)the applicant has exhausted the remedies available in
the courts of the State;

-6-

(d) An application for a writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a State court shall
not be granted with respect to any claim that was adjudicated on
the merits in State court proceedings unless the adjudication of
the claim—

(1) resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.

28 U.S.C. §2254. Section 2254 clearly sets limits on the power of a federal
court to grant an application for a writ of habeas corpus on behalf of a state
prisoner. Cullen v. Pinholster, 563 U.S. 170, 181 (2011); Glenn v. Wynder,
743 F.3d 402, 406 (3d Cir. 2014). A federal court may consider a habeas
petition filed by a state prisoner only “on the ground that he is in custody in
violation of the Constitution or laws or treaties of the United States.” 28
U.S.C. §2254(a). “[Fjederal habeas corpus relief does not lie for errors of
state law." Lewis v. Jeffers, 497 U.S. 764, 780 (1990); see also Pulley v.
Harris, 465 U.S. 37, 41 (1984). By limiting habeas relief to state conduct
which violates “the Constitution or laws or treaties of the United States,”
§2254 places a high threshold on the courts. Additionally, relief cannot be
granted unless all available state remedies have been exhausted, or there is
-7-

an absence of available state corrective process, or circumstances exist that
render such process ineffective to protect the rights of the applicant. See 28
U.S.C. §2254(b)(1).

III.

Discussion
A. Exhaustion and Procedural Default
Habeas relief “shall not be granted unless it appears that ... the

applicant has exhausted the remedies available in the courts of the State,"
meaning a state prisoner must “fairly present” his claims in “one complete
round of the state's established appellate review process," before bringing
them, in federal court. 28 U.S.C. §2254(b)(1)(A); see also O’Sullivan v.
Boerckel, 526 U.S. 838, 845 (1999) (stating “[b]ecause the exhaustion
doctrine is designed to give the state courts a full and fair opportunity to
resolve federal constitutional claims before those claims are presented to the
federal courts, ... state prisoners must give the state courts one full
opportunity to resolve any constitutional issues by invoking one complete
round of the State’s established review process.”); see also Duncan v. Henry,
513 U.S. 364, 365 (1995); Picard v. Connor 404 U.S.. 270, 275. (1971);
Lambert v. Blackwell 134 F.3d 506, 513 (3d Cir. 1997). The exhaustion
requirement is grounded on principles of comity in order to ensure that state

-8-

courts have the initial opportunity to review federal constitutional challenges
to state convictions. See Werts v. Vaughn. 228 F.3d 178, 192 (3d Cir. 2000).
A petitioner has exhausted a federal claim only if he or she presented
the “substantial equivalent” of the claim to the state court. Picard. 404 U.S.
at 278. To satisfy this requirement, a petitioner must “fairly present” his
federal claim's “factual and legal substance to the state courts in a manner
that puts them on notice that a federal claim is being asserted.” Robinson v.
Beard. 762 F.3d 316, 328 (3d Cir. 2014); see Baldwin v. Reese. 541 U.S.
27, 29 (2004); see McCandless v. Vaughn, 172 F.3d 255, 261 (3d Cir. 1999).
1. Ground One
In Ground One, Petitioner claims that trial counsel was ineffective for
“failing to impeach the Commonwealth’s firearms expert and that counsel
was unable to do so because he had failed to obtain a firearms expert for the
defense" and “had counsel done so, he would have been able to impeach
the Commonwealth witness with plain and specific facts such as ‘a .32 bullet
(live ammunition) cannot be fired from a .38 caliber revolver because the
firing pin does not position itself with the revolver’s hammer to allow the
primer to ignite-thus causing the gun powder in the bullet casing to explodesending the bullet projectile out of the hand-gun barrel, in excess of 2,000
feet per second.” (Doc. 1 at 20). Petitioner believes that the “facts that could

-9-

have been utilized to impeach Officer Douglas-were never utilized because
of Counsel’s lack of knowledge about the firearm in question.” Id. Petitioner
raised this issue in his initial PCRA proceedings and the PCRA court
adjudicated the claim on the merits. (Doc. 13-2 at 84-87). However, he failed
to pursue the claim in his PCRA appeal. Hoskins concedes that this claim is
unexhausted and procedurally defaulted. (Doc. 1 at 33-35).
In his traverse, Hoskins indicates that he is relying on the Martinez v,
Ryan. 566 U.S. 1 (2010) exception to excuse the procedural default of his
claim. (Doc. 19, at 2-5). Specifically, Martinez holds that “[inadequate
assistance of counsel at initial-review collateral proceedings may establish
cause for a prisoner’s procedural default of a claim of ineffective assistance
at trial.” 566 U.S. at 9. To successfully invoke the Martinez exception, a
petitioner must satisfy two factors: that the underlying, otherwise defaulted,
claim of ineffective assistance of trial counsel is “substantial,” meaning that
it has “some merit,” id. at 14; and that petitioner had “no counsel” or
“ineffective” counsel during the initial phase of the state collateral review
proceeding. Id. at 17; see also Glenn v. Wvnder, 743 F.3d 402, 410 (3d Cir.

2014).
Here, however, because Petitioner alleges that appellate PCRA
counsel rendered ineffective assistance, his procedural default is not

-10-

excusable under the Martinez exception. See Norris v. Brooks, 794 F.3d 401
404 (3d Cir. 2015) (“[T]he Court stated that the rMartinezl exception applies
only to attorney error in initial-review collateral proceedings, not appeals from
those proceedings.”); Cox v. Hor, 757 F.3d 113, 119 (3d Cir. 2014) (requiring
a prisoner to show “the default was caused by ineffective assistance of postconviction counsel or the absence of counsel [ ] in the initial-review collateral
proceeding”);

Garcia v.

Pennsylvania,

No.

3:14-CV-2214, 2018 WL

5981678, at *5 (M.D. Pa. Nov. 14, 2018) (citing Martinez. Norris, and Cox to
conclude same).
In his traverse, Petitioner asserts that PCRA counsel’s ineffectiveness
establishes cause and prejudice to overcome his procedural default of
Grounds One. (Doc. 19, at 2-5). For Martinez to apply, Petitioner must show
that his ineffective assistance of trial counsel claims have “some merit,” and
that he had ineffective counsel or no counsel at the initial-review stage of the
state collateral proceeding. See Workman v. Sup’t Albion SCI, 915 F.3d 928,
937 (3d Cir. 2019). Here, Petitioner’s state-appointed attorney withdrew
pursuant to Finley and filed a letter of no-merit. The Third Circuit has
concluded that a Martinez inquiry “focuses on whether counsel, not the
prisoner, raised the ineffective assistance of counsel claim at the initial

review collateral proceeding,” Mack v. Sup’t Mahanov SCI, 714 F. App’x 151
153 (3d Cir. 2017).
In Mack, the court also held that where a petitioner fails to raise an
ineffective assistance of counsel claim in responding to a letter of no-merit,
the claim may still be excused by Martinez if “PCRA counsel was ineffective
for filing a no-merit letter and not raising [the • petitioner's] ineffective
assistance claim.” |d. at 154. Therefore, if Petitioner’s PCRA counsel was
ineffective for not raising these claims of ineffective assistance of trial
counsel in his no-merit letter, and if Petitioner’s ineffective assistance of trial
counsel claims are “substantial,” or have “some merit,” then Martinez would
apply to excuse Petitioner's default. See Workman. 915 F.3d at 937.
Upon review of the record, the Court concludes that PCRA counsel did
raise Petitioner’s claim of trial counsel’s ineffectiveness in his no-merit letter.
(Docs. 13-1 at 44 and 13-2 at 3). The PCRA court addressed Ground One in
its Notice of intent to dismiss Petitioner’s PCRA petition as well as its Order
denying his petition. (Doc. 13-1 at 1, 9). Thus, Petitioner cannot rely upon
the purported ineffectiveness of initial-review PCRA counsel to excuse his
procedural default.

-12-

Rather, Petitioner procedurally defaulted Ground One by failing to raise
it on appeal from the denial of his PCRA petition and, as noted above, he
cannot reply upon appellate PCRA counsel’s failure to raise such claims to
overcome his default.
Although Ground One is procedurally defaulted, Respondent also
argues that it lacks merit. (Doc. 13 at 13-14). Accordingly, the Court will
address the merits of this ground below.
In Strickland v. Washington, 466 U.S. 668 (1984), the Supreme Court
explained that there are two components to demonstrating a violation of the
right to effective assistance of counsel. First, the petitioner must show that
counsel's performance was deficient. This requires showing that “counsel's
representation fell below an objective standard of reasonableness.” See id.
at 688; see also Williams v. Taylor, 529 U.S. 362, 390-91 (2000). Second,
under Strickland, the petitioner must show that he was prejudiced by the
deficient performance. “This requires showing that counsel's errors were so
serious as to deprive the defendant of a fair trial, a trial whose result is
reliable.” Strickland. 466 U.S. at 687. To establish prejudice, the defendant
“must show that there is a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would have been different.
A reasonable probability is a probability sufficient to undermine confidence
-13-

in the outcome.” See id- at 694. The Strickland test is conjunctive and a
habeas petitioner must establish both the deficiency in the performance
prong and the prejudice prong. See Strickland. 466 U.S. at 687; Dooley v.
Petsock, 816 F.2d 885, 889 (3d Cir. 1987). As a result, if a petitioner fails on
either prong, he loses. See Holladav v. Haley, 209 F.3d 1243, 1248 (11th
Cir. 2000) (“Because both parts of the test must be satisfied in order to show
a violation of the Sixth Amendment, the court need not address the
performance prong if the defendant cannot meet the prejudice prong or vice
versa.”) (citation omitted): Foster v. Ward. 182 F.3d 1177, 1184 (10th Cir.
1999) (“This court may address the performance and prejudice components
in any order, but need not address both if Mr. Foster fails to make a sufficient
showing of one.”).
The two-pronged test established in Strickland “qualifies as ‘clearly
established Federal law’ ” for purposes of the AEDPA. See Rainey v. Varner,
603 F.3d 189, 197 (3d Cir. 2010) (quoting Williams v. Tayjor, 529 U.S. 362,
391 (2000)).2 Therefore, under §225.4(d)(1), the relevant inquiry in assessing
ineffectiveness claims that have been adjudicated on the merits is whether
the state court's decision involved an unreasonable application of Strickland

2 The standard under Pennsylvania law for ineffective assistance of counsel
is consistent with the two-prong Strickland analysis. See Werts v. Vaughn,
228 F.3d 178, 203 (3d Cir. 2000).
-14-

or are based on an unreasonable determination of the facts. See Jacobs v.
Horn. 395 F.3d 92, 107 n.9 (3d Cir. 2005). Moreover, Pennsylvania’s three­
pronged test for ineffective assistance claims, see Commonwealth v Pierce
515 Pa. 153, 527 A.2d 973, 975-77 (Pa. 1987), is not contrary to Strickland
see Jacobs. 395 F.3d at 107 n.9.
Petitioner claims that counsel was ineffective for failing to hire an
expert to challenge the Commonwealth’s witness concerning ballistic
findings. (Doc. 1).
The record reveals that Officer Douglas testified that the he fired the
weapon' a .32 caliber revolver recovered at the scene, and it functioned
properly when he test fired .32 cal. ammunition for that weapon. (Doc. 13-3
at 170-174). The Commonwealth submits that Officer Douglas’ testimony
didn’t constitute expert testimony but, even if it did, Officer Douglas was
qualified to give expert testimony, as his testimony established that since
1985 he was a firearms instructor and had attended numerous firearms
instruction

courses

and

that

he was familiar with

revolvers and

semiautomatics. (Doc. 1_3 at 13).
Petitioner also contends the wrong gun was test fired because-there
was testimony that the gun used by petitioner was a .38 caliber handgun not
a .32. (Doc. 1 at 24). For this argument petitioner relies on the statement in

-15-

the trial and Superior Court opinions that a .38'cal. gun was utilized. Id.
However, a review of the testimony at trial reveals that there was no
testimony that a .38 cal. weapon was used. (See Doc. 13-3). While witness,
James Drummond referred to a .38 gun, he testified he “thought it was a .38,
but it wasn’t a .38”. Id. 147.
The PCRA Court rejected Petitioner’s challenge to the handgun used
at the scene, and the need for an expert, in its Opinion and Order dismissing
Petitioner’s PCRA petition, as follows:
The Defendant alleges that trial counsel should have known that
the firearm testified by the firearms instructor was not the firearm
in possession by the Defendant at the time of the alleged
incident. To make a claim for ineffective assistance of counsel, a
defendant must prove the following: (1) an underlying claim of
arguable merit; (2) no reasonable basis for counsel’s act or
omission; and (3) prejudice as a result, that its, a reasonable
probability that but for counsel’s act or omission, the outcome of
the proceeding would have been different. Commonwealth v.
Cooper, 941 A.2d 655, 664 (Pa. 2007) (citing Commonwealth v._
Carpenter, 725 A.2d 154, 161 (1999)). A failure to satisfy any
prong of this test is fatal to the ineffectiveness claim. Cooper, 941
A.2d at 664 (citing Commonwealth v. Sneed, 899 A.2d 1067,
1076 (2006)). Further, Counsel is presumed to have been
effective. Id.
The Defendant’s claim is without merit and inconsistent with this
own testimony at trial. The Defendant’s testimony at trial was that
he was never in possession of any firearm:
PETCAVAGE: Okay. You wanted more than the—
DEFENDANT: Exactly, then just that little bag. I wanted
more. That little bag wasn’t enough. Then we started

-16-

arguing. So, he looked - he looked over at Donnie, and
Donnie looked over at the other guy. They didn’t want me
interrupting the card game. And then one thing led to
another one. And then I hit him.
PETCAVAGE: Who hit who?
DEFENDANT: I hit James.

DEFENDANT: An then it was a - you know, it was just like
a brawl. And then he was like, you know, man, you messing
up my card game. You know, you F’in up the money, you
know. Get your drugs, and you know, yourself on out of
here. And - but at that time, I was mad. And I was just, you
know, swinging. And I was fighting. And we was just
fighting. A brawl broke out. You know, just like that, a brawl
broke out; and once the brawl broke out, a gun hits the
floor.

DEFENDANT: Now, where the gun came from, I don’t
know.
PETCAVAGE: Okay. Let’s back up a little bit. When you
came into the house the second time when you came back,
you were in possession of a gun?
DEFENDANT: No, I wasn’t. I don’t own no guns.
PETCAVAGE: Okay. And from what you’ve just testified did you at any time walk into the dining room and pull a gun
out? ....................
DEFENDANT: No, I didn’t.

-17-

DEFENDANT: That time, the whole card game, you know,
the table and everything went up, you . know, and - you
know, a roll, you know, just like boom, boom, like you know,
because thing was, you know, bumping.
PETCAVAGE: Sure.
DEFENDANT: And then all I seen - somebody said gun.
And I looked down on the floor, there was the gun, which it
had to come from under the table.
N.T., February 2, 2007, p. 234-36. The Defendant is contending
that he committed perjury at trial when he stated that he never
had a firearm and that he did in fact have a firearm, but just not
the one in possession of police.
There are many issues with the Defendant’s contention,
however, there is no allegation that trial counsel was aware of
the firearm or that he should have been aware. In fact, if trial
counsel knew that the firearm was wrong he would not have been
permitted to allow the Defendant to testify at the trial, as he would
have known the Defendant was committing perjury. The
Defendant has not alleged or established that the wrong firearm
was within his counsel’s knowledge; especially since it conflicted
with his own testimony at trial. See Commonwealth v. Duffev,
889A.2d56(Pa. 2011).
Additionally, the Defendant has not established that the police
collected the wrong firearm and that the firearm he used was
inoperable. The Defendant contends that his firearm was a .38
and Douglas testified regarding a .32. Drummond testified that
he was mistaken when he believed the Defendant’s firearm was
a .38 and that he did not remember the gun. N.T., February 2,
2007, p. 132, 147. Drummond testified that he had spent time in
the hospital and did not remember the incident. Id. at 82. Donnie
Evans, however, testified that Drummond was the last person to
have the firearm. Further, Officer Eric Delker (Delker) of the
Williamsport Bureau of Police testified that Drummond pointed to
a coat after the incident to where the gun was located. ]d. at 181.
Delker testified that exhibit 1, which was the .32 tested by
-18-

Douglas, was the firearm retrieved from the coat. ]d. at 182. The
Commonwealth established that the firearm collected was the
one identified by witnesses and that no other firearm was
collected.
Finally, the Defendant’s issue is without merit because he also
was not prejudiced. The record is clear that trial counsel
generally attempted to imply that the firearm belonged to another
black male in the residence. The Defendant specifically alleges
that Douglas, the firearm instructor, should have been crossexamined on whether the firearm was the correct firearm.
Douglas, however, received, the firearm from other officers and
was never at the scene of the incident.
PETCAVAGE: Officer Douglas, you had no involvement in
this investigation other than with respect to what you’ve
now testified to in analyzing the gun, is that correct?
DOUGLAS: That is correct. And entering the cocaine into
the envelope.
PETCAVAGE: Okay. And you got the gun that you’ve now
testified to that you tested from whom?
DOUGLAS: On July 8th, it was given to me by Officer Roy.
PETCAVAGE: Okay. So the only thing you could testify to
was that you were given a gun by Officer Roy to test?
DOUGLAS: That is correct.
PETCAVAGE: Okay. So you cannot in any way identify
where that gun came from or whose gun it was, can you?
DOUGLAS: That is correct.
Id. at 174-75. Douglas could not have been cross-examined
regarding whether the correct firearm was collected. Based on
the record, this Court finds that the Defendant’s PCRA Petition is
without merit.
-19-

(Doc. 13-2 at 11-14).
“There is.a strong presumption that counsel’s attention to certain
issues to the exclusion of others reflects trial tactics rather than sheer
neglect.” Harrington v. Richter, 562 U.S. 86, 109 (2011). With respect to a
claim that counsel failed to call a certain witness, a petitioner “cannot meet
his burden to show that counsel made errors so serious that his
representation fell below an objective standard of reasonableness based on
vague and conclusory allegations that some unspecified and speculative
testimony might have established his defense. Rather, he must set forth facts
to support his contention.” Zettlemover v. Fulcomer, 923 F.2d 284, 298 (3d
Cir. 1991). Here, Petitioner fails to explain how the testimony of an expert
would have changed the outcome of his trial..Petitioner’s own trial testimony
belies the need for an expert to challenge the type of weapon, as Petitioner,
himself, testified at trial that the was never'in possession of a weapon.
Additionally, the testimony of Officer Douglas reveals that he was not the
officer who retrieved the firearm at the scene; further demonstrating that an
expert was unnecessary to challenge Officer Douglas’ testimony to
determine if the correct firearm was collected from the scene. The Court
agrees with Respondent that Petitioner has not demonstrated that the state
court’s disposition of this claim was contrary to, or was an unreasonable
-20-

application of, United States Supreme Court precedent. Moreover, Petitioner
has not demonstrated that the state court’s determination of the facts was
unreasonable. As such, Hoskins has failed to show that PCRA counsel was
ineffective or that he was prejudiced by the alleged ineffectiveness, so as to
excuse his procedural default of this claim.
2. Ground Two
Petitioner claims that “no counsel, throughout the various stage of this
case, ever challenged the 28 to 60 year sentence (aggregated) and no
counsel ever challenged the nearly .maximum consecutive sentences on the
lead charges.” (Doc. 1 at 29). Specifically, Petitioner claims that while “out
on bail release pending sentencing,” the “police utilized Petitioner to assist
them in several cases and for that the police would notify the court of the
Petitioner’s cooperation and that the Commonwealth would recommend a
lower sentence based upon the recognized cooperation that Petitioner did
provide to the Commonwealth.” Id. at 16. He states that “the Commonwealth
reneged on its agreement to recommend a significantly lower sentence" and
“neither trail counsel or PCRA counsel, for that matter, ever did raise this
claim...” Id. Thus, -Petitioner concedes that this claim is unexhausted and
proceduraily defaulted. However, he fails to show that PCRA counsel was

-21 -

ineffective or that he was prejudiced by the alleged ineffectiveness, so as to
excuse his procedural default of this claim, as the instant claim lacks merit.
Under Strickland, Petitioner must show his counsel’s actions fell
“outside the wide range of professionally competent assistance.” Strickland,
466 U.S. at 690. He must also show there is a reasonable possibility the
outcome of the underlying proceeding would have been different if not for his
counsel's deficient performance. Lewis v. Horn, 581 F.3d 92, 106-107 (3d
Cir. 2009). Failing to raise a meritless claim on appeal does not constitute
ineffective assistance. Singletary v. Blaine, 89 Fed.App’x. 790, 794 (3d Cir.
2004). A state court’s factual determinations are entitled to a highly
deferential presumption of correctness. 28 U.S.C. §2254(e)(1).
In order to challenge the discretionary aspect of sentencing a petitioner
must establish in the state court that a substantial question exists, that is
whether the sentencing judge’s action were inconsistent with a specific
provision of the sentencing code or contrary to the fundamental norms which
underly the sentencing process. Commonwealth v. Proctor, 156 A.3d. 261
(Pa Super. 2017). To obtain relief the defendant must establish the
sentencing court either ignored or misapplied the law, exercised its judgment
for reasons of partiality, ill will or arrived at a manifestly unreasonable
decision. Commonwealth v. Sheller, 961 A.2d. 187 (Pa Super. 2008).
-22-

Here, Petitioner does not point to any of these factors. Instead,
Petitioner focuses only on his displeasure that he did not receive a reduced
sentence based on his cooperation with the police. The sentencing judge
however, rejected Petitioner’s claim as follows:
THE COURT: . . . Now, have I ever not factored in cooperation?
No. I’ve always considered that. But like I said, you biggest
obstacle you have to surmount is the fact that you have went in
the wind for four years and that - that basically all but negates
the cooperation that you have made because I have no choice
but to send a message to the universe, which is, you can’t do
this. You can’t come in, be held accountable, be taken at your
word that you’re going to do what you’re supposed to do and then
turn your back on us and not suffer some kind of consequence
as a result. Because if that were the case, then nobody would
show up for court, everybody would think well it doesn’t really
matter to me one way or the other I’m still going to get the same
sentence than I might as well do whatever I want to do and that’s
not accurate.

The most sentence that I can conceivably, I believe, can
sentence you to is a 10 to 20 because there are two separate
victims in the case. You’re going to be sentenced 10 to 20 years
on each of those charges. Because there is a separate robbery
offense I’m going to sentence you separately on that, too.
(Doc. 13-3 at.291-293).
The Court finds the state court’s determination is not contrary to clearly
established federal law or an unreasonable determination of the facts. The
sentencing court considered the nature of the offense, the sentencing
guidelines, Petitioner’s prior criminal history, his absconding for four years
-23-

following his conviction, and his cooperation and Petitioner’s representation
concerning that cooperation. (Doc. 13-3 282-285, 289-294). Petitioner’s
claim is without merit. As such, Hoskins has failed to show that PCRA
counsel was ineffective or that he was prejudiced by the alleged
ineffectiveness, so as to excuse his procedural default of this claim.

IV.

Certificate of Appealability
Pursuant to 28 U.S.C. §2253(c), unless a circuit justice or judge issues

a certificate of appealability (“COA”), an appeal may not be taken from a final
order in a proceeding under 28 U.S.C. §2254. A COA may issue only if the
applicant has made a substantial showing of the denial of a constitutional
right. 28 U.S.C. §2253(c)(2). “A petitioner satisfies this standard by
demonstrating that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed further.”
Miller-Ei v. Cockrell, 537 U.S. 322 (2003). Petitioner fails to demonstrate that
a COA should issue.
The denial of a certificate of appealability does not prevent Hoskins
from appealing the order denying his petition so long as he seeks, and

-24-

•si

obtains, a certificate of appealability from the Third Circuit Court of Appeals.
See Fed. R. App. P. 22(b)(1).

V.

Conclusion
For the reasons set forth above, the petition for writ of habeas corpus

pursuant to 28 U.S.C. §2254 will be denied.
An appropriate order follows.

61 MaiacAy, £, Mantuan
MALACHY E. MANNION
United States District Judge
DATE: January 19, 2021
18-1701-01

-25-

